No. 20-1595
IN THE SUPREME COURT OF THE UNITED STATES
_________________
NAUM MORGOVSKY AND IRINA MORGOVSKY,
PETITIONERS
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 16th day of July 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8,302 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
July 16, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 16, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1595
MORGOVSKY, NAUM AND IRINA MORGOVSKY
USA

LAURA LIVELY BABASHOFF
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
MARISA C. MALECK
KING & SPALDING LLP
1700 PENNSYLVANIA AVE. NW
WASHINGTON, DC 20006
ANNE MARGARET VOIGTS
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
213-443-4355
AVOIGTS@KSLAW.COM

